IN THE SUPREME COURT OF THE UNITED STATES
No. 21-217
Marcy Britton,
Petitioner,
Mayor Tim Keller, Danny Nevarez, and City of
Albuquerque,
Respondents.

CERTIFICATE OF COMPLIANCE

Undersigned counsel certifies that Respondents' Brief in Opposition complies
with the type-volume limitation of Supreme Court Rule 33.1 and 33.2 regarding page
limitation as it consists of 3,378 words using Microsoft Office Word 2016 in 12-point
font in the Century family.

k-44.tz-

Kevin A. Morrow
Deputy City Attorney
PO Box 2248
Albuquerque, NM 87103
(505) 768-4500
kmorrow@cabg.gov

Attorney for Respondents

